CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amici Curiae of
the Ethics and Religious Liberty Commission of the Southern Baptist Convention,
et al., supporting granting the Petition in No. 20-1434, Rutledge, et al. v. Little Rock
Family Planning Services, et al., contains 2,399 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
May 13, 2021

/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

